KARLSENG, LEBLANC & RICH, LLC
19111 N. Dallas Parkway, Suite 120
Dallas, TX 75287
Office: 972-733-3800
Fax: 972-733-3806

Maureen S. Kersey
Attorney at Law
Email: maureen@klrlegal.com
February 16, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

No. 20-960
Khue Nguyen v. Estate of Thin Thi Ta, Hai Phu Nguyen as Heir and Administrator, Thao
Xuan Ta,

Dear Mr. Harris:
I represent Respondents the Estate of Thin Thi Ta, Hai Phu Nguyen as Heir and Administrator,
Thao Xuan Ta, with regard to the above referenced matter. Respondent’s Brief in Opposition to the Petition
for a Writ of Certiorari is due on or before February 16, 2021. I have filed the Brief in Opposition electronically
on Friday, February 12, 2021. However, due to the declared Federal emergency and snow storm encompassing
the entire State of Texas, the paper Brief in Opposition has been delayed due to power outages and delivery
delays. I respectfully request a fifteen (15) day extension of time to file the paper form of the Brief in Opposition
to the Petition for a Writ of Certiorari.
If you have any questions regarding the enclosed, please do not hesitate to contact me. However, at this
time our office has no power. Thank you for your time and attention.

Sincerely,
/s/ Maureen S. Kersey
Maureen S. Kersey

